SAR Covers 1 and 4.qxd   4/30/09   10:58 AM   Page 1
                                    Department of Energy
                                         Washington, DC 211585

                                            A p r i l 3 0 , 2009




'I'ile j-j.i?jlorableDr. Steverr C'~ILI
Secretary of X!nergy
Washingtont r91.1 20585



1 aul pleased to s ~ & j ~ >tilt:
                                i ; C)ffice of Inspector (;eilc.:-al's (OIC:;) Sl:ni,;i:ifi~?.~csI
                                                                                               Kc,nar.l lo
              T):is report saln3nl;xr:ixes sjgllifi.carlt(>IG acfivi%i;:sand ~~~~~~~~~~~~~~~~L"~II.s during
<;'o.ilg,~~,~..o.
the .c;i>; non nth peri.od er~tjingMardl 3 1 , 2009. This repn1-t reflc6;ts our con%in.liirrg
cornmiirnerlt t.0 f i 3 ~ 1cj]:(:;
                            . i ~ efforts on       issues and corlcerns mix: criticnl to yiju: the
Adrnjnistralion, the Congrc;.ess,x~ldthe taxp;lyer..

>,{.I   .%   I   f<jp;srxrdto \vork-.ingwit11 you oa Rtabters of rnlrl.ila?ii~tXest.




                                       Q3               ; i::i: .,::rcc~cI:xJ(:i:v:
                                            I';intx: ;dlso;.
This page intentionally left blank.
                                                                SEMIANNUAL
                                                                REPORT TO CONGRESS




                              Table of Contents

Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

American Recovery and Reinvestment Act Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Significant Audits, Inspections, and Other Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Significant Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Positive Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
     Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Intelligence Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
     Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


Statistical Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     Recovery Act Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
     Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
     OIG Issued Audit Reports with Recommendations for Better Use of Funds . . . . . . . . . . . . . . . . . . . 26
     OIG Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
          Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
          Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
     Summary of Inspections/Special Inquiries Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
     Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




                                                                                    OCTOBER 1, 2008 – MARCH 31, 2009                                   iii
                                   SEMIANNUAL
                                   REPORT TO CONGRESS




                          This page intentionally left blank.




iv   OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Message from the Inspector General

                                        On behalf of the Department of Energy’s Office of Inspector
                                        General, I am pleased to submit our Semiannual Report to Congress
                                        for the period ending March 31, 2009. The Report highlights key
                                        accomplishments of the Office of Inspector General, particularly
                                        pertaining to our efforts to ensure the economy, efficiency, and
                                        effectiveness of Department of Energy operations. Details
                                        pertaining to some of our most significant reviews and projects are
                                        presented in the Report.

                                      This reporting period has been quite eventful. On February 17, 2009,
                                      the President signed the American Recovery and Reinvestment Act
                                      of 2009. The stated intent of this new legislation is to strengthen
                                      the U.S. economy through the creation of new jobs, aiding State
and local governments with budget shortfalls, cutting taxes for working families, and investing in the
long-term health of the Nation’s economic prosperity.

The Recovery Act establishes the status of the Nation’s energy supply as a prime focus. Specifically, the
Department of Energy will receive approximately $40 billion for various energy, environmental, and science
programs and initiatives. The passage of this legislation makes the coming months an exciting and
transformative time for the Department of Energy and the Office of Inspector General. In recognition of
the need for effective oversight to protect taxpayer interests, the Recovery Act includes the creation of the
Recovery Act Accountability and Transparency Board and mandates specific actions by the Inspectors
General. I will be a permanent member of this newly created Board, along with nine other Inspectors
General whose agencies are significant recipients of Recovery Act funds.

Since the passage of the legislation, my office has developed a strategy
consistent with the objectives outlined in the Recovery Act. The overarching
goal of the strategy is to ensure that the taxpayers’ interests relating to the
performance and results of the Recovery Act are protected. During this
reporting period, my office issued two reports pertaining to the Recovery
Act. In our first report entitled, “The American Recovery and
Reinvestment Act at the Department of Energy,” we identified “lessons
learned” based on prior work with the intention of providing the
Department with a resource as it moves forward with its Recovery Act-related
efforts. Secondly, we recently issued a report entitled, “The Department of
Energy’s Acquisition Workforce and its Impact on Implementation of the American
Recovery and Reinvestment Act of 2009,” which describes the current status of the Department’s
acquisition workforce, positive actions that have already been taken, and the challenges that remain in light
of the impact of the Recovery Act.




                                                          OCTOBER 1, 2008 – MARCH 31, 2009               1
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Additionally, although not initiated as a Recovery Act report, shortly after the passage of the legislation, we
issued a related report entitled, “The Department of Energy’s Loan Guarantee Program for Innovative
Energy Technologies,” in which we evaluated the Department’s progress in establishing internal and
operational controls over the program. Further, we have conducted nearly 40 fraud awareness briefings to
nearly 2,000 Department and contractor officials. While such briefings are a routine part of our work,
these particular briefings were specifically designed to heighten awareness of the vulnerabilities, risks, and
potential fraud schemes related to the Recovery Act.

The work of safeguarding public resources and the public trust is a collaborative effort that stretches across
government, including agency management and the Congress. Much work has been done, but more
remains and we look forward to the coming challenges.




                                                        Gregory H. Friedman
                                                        Inspector General




  2     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                                                        prior reviews. Management agreed to re-evaluate
                                                        the potential risks identified in our report at all
                                                        sites in light of the significant additional funding
                                                        provided under the Recovery Act.
                                                        (OAS-RA-09-01)
American Recovery
and Reinvestment                                        Challenges Facing the
                                                        Department’s Acquisition
Act Reports                                             Workforce

                                                        In 2007, the OIG initiated a review to examine
The American Recovery and                               the staffing levels of the Department's acquisition
                                                        workforce. The results of the review were
Reinvestment Act at the
                                                        conveyed in an advisory memorandum to the
Department of Energy                                    Deputy Secretary raising concerns that the number
                                                        of departmental contract specialists had not kept
The American Recovery and Reinvestment Act of           pace with the demand for their services. With the
2009 was signed into law on February 17, 2009,          signing of the Recovery Act, $40 billion was
as a way to jumpstart the U.S. economy, create or       injected into the Department’s budget for various
save millions of jobs, spur technological advances      energy, environmental, and science programs and
in science and health, and invest in the Nation's       initiatives to be spent as expeditiously as possible.
energy future. This national effort requires an         Given the Department's almost total reliance on
unprecedented level of transparency and                 the acquisition process (contracts, grants,
accountability. Our report provided the                 cooperative agreements, etc.), sound contract
Department of Energy (Department) with “lessons         administration policies as well as a stable,
learned” and suggested approaches for reducing          experienced acquisition workforce are essential
the risks associated with the extraordinary level of    components for the effective execution and
Recovery Act funding. The report identified             performance of its core missions. Although the
specific risks that we discovered during past           number of contract specialists increased since the
reviews and investigations in areas such as fund        previous review, the impact from current demands,
accountability and reporting, grants and                including the Recovery Act, poses a tremendous
cooperative agreement execution, contract               burden on the existing workforce. We concluded
management, and management of loan guarantee            that the Department staffing efforts should
efforts. The report also outlined ongoing and           continue and suggested the Department
planned Office of Inspector General (OIG)               periodically re-evaluate the need for additional
activities designed to help ensure that the Recovery    contract specialists and other procurement
Act programs are well managed and that funds are        professionals as well as maximize all options for
protected from waste, fraud and abuse.                  employee recruitment. (OAS-RA-09-02)

Based on a review of our report, management
indicated that it had taken a number of corrective
actions to address specific problems identified in



                                                         OCTOBER 1, 2008 – MARCH 31, 2009                3
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




                                                       The Department’s Loan
                                                       Guarantee Program Not Fully
                                                       Implemented

Other Significant                                      The Energy Policy Act of 2005 authorized the
                                                       Department to make $42.5 billion in loan
Audits, Inspections,                                   guarantees to support innovative energy projects
                                                       such as new or significantly improved energy
                                                       production technologies that avoid, reduce, or
and Reviews                                            sequester air pollutants and other greenhouse
                                                       gases. Our review disclosed that while a number
                                                       of key programmatic safeguards had been
Management Challenges                                  developed and implemented, the Department had
                                                       not yet:
As required by the Reports Consolidation Act of
2000, the OIG creates an annual list of challenges        ■   Completed a control structure necessary to
facing the Department. The effort highlights the              award loan guarantees and monitor
agency’s most demanding issue areas as well as                associated projects;
those that represent key impediments to the               ■   Finalized policies and procedures for
fulfillment of the Department’s critical functions.           evaluating loan applications, approving
We also developed a “watchlist,” which consists of            loan guarantees, monitoring project and
significant issues that do no meet the                        loan guarantee performance, qualifying
“management challenge” threshold, yet warrant                 potential lenders and monitoring
continued attention by the Department. Based on               participating lenders;
work performed by the OIG over the past
reporting period, the following represent the most        ■   Formalized procedures for disbursing loan
serious challenges facing the Department:                     proceeds to successful applicants; and,
   ■   Contract Administration                            ■   Fully staffed the Loan Guarantee
                                                              Program Office.
   ■   Cyber Security
   ■   Energy Supply                                   Management concurred with our
                                                       recommendations and implemented corrective
   ■   Environmental Cleanup                           actions to improve the Program. (DOE/IG-0812)
   ■   Safeguards and Security
   ■   Stockpile Stewardship
                                                       Cyber Security Improvements
The “watchlist” consists of: Human Capital,            Needed at Bonneville Power
Infrastructure Modernization, and Worker and           Administration
Community Safety. (DOE/IG-0808)
                                                       During this audit, we sought to determine whether
                                                       the cyber security program at Bonneville Power
                                                       Administration adequately protected its data and


 4      OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




information systems. Our review identified risk              ■   Developed corrective action plans necessary
management weaknesses related to the certification               to resolve weaknesses in a number of
and accreditation of Bonneville's critical                       important control areas; and,
information systems. If not adequately addressed,
                                                             ■   Developed contingency plans to ensure that
these weaknesses could adversely impact the
                                                                 systems could be recovered in the event of a
security of Bonneville's critical systems and the
                                                                 significant outage.
data they contain. Management concurred with
the recommendations and pledged to correct
                                                          Management generally concurred with the overall
problems with its cyber risk management program.
                                                          conclusions and recommendations in the report.
(DOE/IG-0807)
                                                          (DOE/IG-0805)


Concerns over Cyber Security                              National Nuclear Security
Risk Management Practices at                              Administration’s Innovative
Select Power Administrations                              Technologies
The Southeastern, Southwestern, and Western               We conducted this audit to determine whether the
Area Power Administrations provide electrical             Department's National Nuclear Security
power to customers in 29 states. Under the                Administration (NNSA) had made progress in
Federal Information Security Management Act,              deploying innovative technologies to meet security
each entity is required to certify and accredit its       requirements. While progress was made, a few
information systems. This formal process is               technologies had not performed as expected and
designed to ensure systems are secure prior to            some maintenance requirements were more than
beginning operation and that they remain so               anticipated by NNSA sites. For example, sites
throughout their lifecycles.                              which had deployed infrared radar systems
                                                          incurred annual maintenance costs that were
We conducted this audit to determine whether the          nearly as much as the purchase price. Further,
cyber security programs at Southeastern,                  NNSA sites did not always analyze and evaluate
Southwestern, and Western Area Power                      technologies under actual operating conditions
Administrations adequately protected operational          before selecting them for deployment. We made
data and information systems. Our review                  suggestions regarding the use of validated
identified critical certification and accreditation       performance data in the selection of security
process weaknesses that could, if not adequately          technologies. (OAS-L-09-02)
addressed, adversely impact the security of the
Power Marketing Administration (PMA) systems
and the data they contain. In particular, these
                                                          Y-12 National Security Complex
PMAs had not:
                                                          Accountable Classified
    ■   Developed adequate security plans for each
                                                          Removable Electronic Media
        of the 12 systems we reviewed;
    ■   Ensured that physical and cyber security          The objective of this inspection was to determine
        controls were tested and operating as             whether Y-12's Accountable Classified Removable
        intended;                                         Electronic Media (ACREM) was managed,



                                                           OCTOBER 1, 2008 – MARCH 31, 2009              5
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




protected, and controlled consistent with                Improvements Needed over
applicable requirements. We found that an
                                                         Department’s Data Centers at
unmarked hard drive had not been properly
identified as Secret/Restricted Data and placed          Contractor Sites
into accountability as ACREM, as required.
Further, 332 metallic flat discs and data tapes          We initiated an audit to determine whether the
located in an ACREM safe may not have been               Department had effectively managed its data
properly controlled as ACREM. Management                 centers at contractor sites. Our review determined
took immediate corrective actions; therefore, no         that the Department had not always improved the
formal recommendations were made.                        efficiency of its contractor sites despite
(INS-L-09-03)                                            opportunities to do so. Improvements such as the
                                                         elimination of duplicative functions and the
                                                         consolidation of operational services and hardware
Security Clearance Processing                            technologies could optimize departmental
                                                         operations and energy efficiency and result in a
Improvements Needed at                                   cost savings over $2.3 million annually.
Department Laboratories                                  Management generally concurred with our
                                                         recommendations and agreed to take corrective
We initiated an inspection to determine if security      action. (DOE/IG-0803)
clearance justifications at Lawrence Livermore
National Laboratory (Livermore) and Sandia
National Laboratory-California (Sandia) met the          Management Control
Department's requirements. Approximately
                                                         Improvements Needed over the
9,200 individuals hold clearances at these
two sites.                                               Department's Excess Weapons
                                                         Inventories and Selected
Our review concluded that officials at Livermore         Sensitive Equipment Used by
and Sandia did not fully adhere to Department
requirements regarding security clearance
                                                         Protective Forces
justifications. Specifically, we found that:
                                                         Revisions in security posture at the Department
   ■   Livermore and Sandia officials requested          have driven its sites to upgrade their defensive and
       and retained security clearances inconsistent     tactical equipment to better respond to threats.
       with Department policy; and,                      Subsequent changes in the perceived threats have,
   ■   There were not adequate internal controls in      in some cases, led to a reduction in the need for
       place to validate justifications for clearance    certain types of weapons, thus creating a pool of
       requests. (INS-O-09-01)                           surplus equipment. Because of prior reported
                                                         weaknesses in controls over defensive and tactical
                                                         equipment, we initiated this audit to determine
                                                         whether the Department and its contractors were
                                                         properly managing excess weapons inventories and
                                                         selected sensitive equipment used by protective
                                                         forces. Our review disclosed that:




 6      OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




   ■   Sites maintained large inventories of            initiated a follow-up audit to determine whether
       weapons that were no longer needed but           the Department had improved its management
       had not been made available for use by           over nuclear materials. We concluded that the
       either other Departmental sites or other         Department could not always accurately account
       Federal law enforcement agencies; and,           for and had not adequately managed significant
                                                        quantities of nuclear materials. Management
   ■   Sites were not always identifying, tracking
                                                        generally agreed with the recommendations in the
       and properly disposing of potentially high
                                                        report and has implemented corrective actions to
       risk and sensitive equipment.
                                                        further enhance the oversight and management of
                                                        these materials. (DOE/IG-0813)
Department management, including the NNSA,
generally concurred with the findings and agreed
to initiate corrective action. (OAS-M-09-01)
                                                        Improvements Are Needed to
                                                        Increase Storage Capacity at
Potential Uses for Depleted                             the Pantex Plant
Uranium Oxide
                                                        We conducted this audit to determine if the
                                                        NNSA’s Pantex Plant had identified sufficient
We initiated this audit to determine whether the
                                                        storage capacity for its weapon parts – pits and
Department had adequately followed through on
                                                        other weapon components – to meet future
identifying potential uses for depleted uranium
                                                        mission requirements. We concluded that Pantex
oxide. Our audit disclosed that the Department
                                                        had inadequate capacity to store certain excess pits.
had not taken adequate action to facilitate
                                                        Pantex could also not demonstrate that plans to
development of depleted uranium oxide-based
                                                        dispose obsolete and excess components will
products. Management concurred with our
                                                        mitigate potential space shortages. Management
recommendations and confirmed that the
                                                        recognized the limitations of storage capacity and
Department will issue an expression of interest to
                                                        offered performance fee incentives to dispose of
industry regulators by January 2010 identifying
                                                        obsolete and excess parts. We made several
potential uses of the depleted uranium oxide.
                                                        suggestions designed to facilitate accurate storage
(DOE/IG-0810)
                                                        needs calculations and projections.
                                                        (OAS-L-09-03)

Follow-Up Review Determined
Improvements Still Needed                               Issues Relating to the
with the Department's                                   Production of Components for
Management of Nuclear                                   the W76 Weapon System at
Materials Provided to                                   Sandia National Laboratory-
Domestic Licensees                                      New Mexico

In 2001, the OIG reported that the Department           The inspection was initiated to review the facts
could not adequately account for nuclear materials      and circumstances surrounding allegations of
loaned or leased to domestic licensees. The OIG         procurement, contract management and quality


                                                         OCTOBER 1, 2008 – MARCH 31, 2009               7
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




assurances irregularities associated with the           Resolution of Significant Finding
production of W76 weapon components at
                                                        Investigation Recommendations
Sandia. We found significant problems with the
execution of established policies and procedures in
                                                        We conducted a follow-up audit on our previous
these areas, which in turn raised questions about
                                                        OIG audit report, Resolution of Significant Finding
the overall effectiveness of Sandia’s quality
                                                        Investigation Recommendations (DOE/IG-0575,
management system for nuclear weapon products.
                                                        November 2002). The 2002 report disclosed that
We made nine recommendations aimed at
                                                        while NNSA could account for the resolution of
improving the Department’s production of weapon
                                                        many of the Significant Finding Investigation
components. Management concurred with our
                                                        (SFI) corrective actions related to problems
findings and identified corrective actions taken or
                                                        affecting weapon safety, reliability, or performance,
planned to address our recommendations.
                                                        the status of a number of additional corrective
(S06IS038)
                                                        actions was not tracked. In response to the prior
                                                        report, NNSA agreed to develop and implement a
                                                        corrective action tracking database by December
Improvements Needed over                                2003. Despite its commitment to address tracking
40 MM Grenade Launcher                                  problems, we found that NNSA still could not
Qualification Requirements                              always formally account for the resolution of
                                                        corrective actions recommended in SFIs.
The Department requires formal training and             Management agreed with the current report
qualification programs be established to ensure         findings and corresponding recommendations and
that protective force officers are competent to         made a commitment to correct deficiencies.
safely and effectively perform assigned tasks. We       (DOE/IG-0804)
initiated an inspection to ascertain if 40 mm
grenade launcher qualification courses at
Department sites were conducted in accordance           Laser Perimeter Awareness
with Department policy. The inspection                  System at an NNSA Site
determined that three of the six sites reviewed did
not conduct qualification courses in accordance         This inspection was initiated to determine the
with Department policy. Management generally            facts and circumstances surrounding allegations
concurred with our findings and identified              regarding the capabilities of a Laser Perimeter
completed and planned corrective actions that           Awareness System (LPAS) at an NNSA site. We
addressed our recommendations.                          found that the capabilities of the LPAS were
(DOE/IG-0806)                                           misrepresented in the sole source justification used
                                                        to procure the system; that there was no analytical
                                                        basis for the acquisition of the LPAS; and, that the
                                                        LPAS cameras were inoperable at the time of our
                                                        field work. Management concurred with our
                                                        findings and identified corrective actions taken or
                                                        planned to address our recommendations.
                                                        (DOE/IG-0809)




 8     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Questionable Internal Audit                            Questionable Purchases Using
Practices by the Washington                            Government Funds at the
Savannah River Company                                 Hanford Site

We conducted a review to determine whether             We found that Hanford Site contractors used
audits completed by the Washington Savannah            Government funds to purchase overtime meals for
River Company (WSRC) Internal Audit                    employees and gift items that were given away to
Department met the Institute of Internal Auditors      the public, which appeared to conflict with Federal
standards. Our review disclosed that work              regulations and policies. Based upon our findings,
performed by WSRC Internal Audit during                the Department's Richland Operations Office and
FY 2007 was not satisfactory in several material       Office of River Protection advised us that future
respects. In particular, we noted that Internal        collective bargaining labor agreements would not
Audit management, for example, had improperly          allow for Government funds to be used for
modified audit results and omitted questioned          overtime meals. Further, the Richland Operations
costs from published audit reports. We concluded       Office indicated that providing gifts to the public
that the work performed by Internal Audit in           would be discontinued. (INS-L-09-02)
FY 2007 could not be relied on. Until deficiencies
are corrected, the allowability and allocability of
the over $1.4 billion in costs incurred and claimed    The Department’s
by WSRC cannot be properly assessed.
                                                       A-123 Program
Management proposed corrective actions that are
responsive to our recommendations.
                                                       We conducted this review to determine whether
(DOE/IG-0811)
                                                       the final phase of the Department's
                                                       implementation of A-123 conformed to
                                                       established requirements. Our FY 2008 review
Inconsistent Contractor                                concluded that the Department's assessment,
Severance Plans                                        documentation and testing of internal controls
                                                       over financial reporting as of June 30, 2008,
We conducted an audit to determine whether the         generally conformed to the requirements
Department had developed a consistent approach         established by the Office of Management and
to reimbursing contractor employee involuntary         Budget. In its FY 2008 Agency Financial Report
separation severance benefit costs. We found the       Management Assurances, the Department reported
Department had not established such policy. The        that it had completed its baseline assessment and
lack of policy resulted in devising differing          evaluation of internal controls that was initiated in
employee severance approaches that varied among        FY 2006 and that its efforts provided reasonable
contractors. We made suggestions to ensure that        assurance that controls were working effectively.
the Department’s future involuntary separation         Our review disclosed that while the Department
action costs are reasonable and properly controlled    completed the described activities, minor
and that separated employees and affected              documentation issues existed for testing and
communities are treated equitably.                     remediation performed during the final phase of
(OAS-L-09-04)                                          implementation. We viewed the completeness of




                                                        OCTOBER 1, 2008 – MARCH 31, 2009               9
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




documentation as an important part of a successful
A-123 program; accordingly, we made several
suggestions to improve the processes.
(OAS-L-09-05)


Improvements Needed over
Compliance with Federal
Managers’ Financial
Integrity Act

We conducted a review of selected aspects of the
Department's implementation of the Federal
Managers’ Financial Integrity Act (FMFIA) to
determine whether its FY 2008 evaluation of
internal controls was carried out in a reasonable
and prudent manner and adequately disclosed
detected waste or other reportable problems.
Overall, the Department's FY 2008 FMFIA
evaluation was carried out in a reasonable manner
and generally disclosed known reportable
problems. However, our review found that some
departmental elements continued to employ
practices that did not fully comply with
established policies and guidelines. We made
suggestions to achieve a more robust quality
assurance process. (OAS-L-09-06)




 10    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




                                                       allegations that it violated the False Claims Act. A
                                                       third company responsible for the weaving and
                                                       sale of the defective body armor also agreed to pay
                                                       the Government in excess of $1 million.

Significant                                            Federal Grantee Agrees to Pay
Investigative                                          $7.6 Million to Resolve False
                                                       Claims Act Allegations
Summaries
                                                       A joint OIG investigation determined that a Federal
                                                       grantee violated Federal rules and procedures
Fraud Awareness Briefings                              regarding cost transfers, cost allocations, and time
                                                       and effort reporting over a 7-year period from
The OIG provided fraud awareness briefings to          January 2000 to December 2006. The grantee, a
groups of Federal employees, contractor officials,     university, had improperly transferred unallowable
and fund recipients. These briefings aid               costs to Federal grants on or about the expiration
significantly in preventing fraud, waste and abuse     date in order to spend down remaining grant funds.
by heightening managers’ awareness of fraud            The investigation also determined that the university
indicators and familiarizing officials with our        improperly charged Federal grants for summer
operations and oversight of Recovery Act funds.        salaries for researchers for unrelated work. The
Our office conducted 40 fraud awareness briefings      university agreed to pay the Government
hosting over 2,000 participants.                       $7.6 million to resolve these issues.


$31 Million Settlement                                 Washington Savannah River
Reached in the Sale of Defective                       Company Agrees to
Body Armor                                             $2.4 Million Settlement

As previously reported, a joint investigation          An investigation determined that Washington
determined that a body armor manufacturer              Savannah River Company withheld pension
knowingly participated in the manufacturing and        contribution information from the Department
sale of defective body armor containing Zylon.         during negotiations for the management and
The body armor company sold the defective body         operating contract at the Department’s Savannah
armor to the Department as well as to other            River Site. Failure to disclose this information had
Federal, State, local and tribal law enforcement       a net effect of making additional monies available
agencies. The company previously agreed to pay a       for the firm’s award fee pool. The contractor
total of $15 million to resolve allegations that it    agreed to pay in excess of $2.4 million to resolve
violated the False Claims Act. During this             allegations of fraud. The settlement also required
reporting period, another company responsible for      the contractor to abandon a claim for fee payment
the manufacture and sale of the defective body         of $35.6 million from the Department, making
armor paid the Government $30 million to settle        the total value of the settlement to the
                                                       Government in excess of $38 million.


                                                        OCTOBER 1, 2008 – MARCH 31, 2009              11
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




Romanian National                                       Five Individuals Sentenced in
Sentenced for Hacking into                              Conspiracy to Damage/Destroy
U.S. Government Computers                               Energy Facilities

A joint DOE OIG investigation with the Naval            As previously reported, an OIG investigation
Criminal Investigative Service, the National            determined that a group of eight individuals
Aeronautics and Space Administration OIG, and           burglarized Bonneville Power Administration and
the Federal Bureau of Investigation determined          Portland General Electric substations. The
that a Romanian national hacked into unclassified       individuals stole recyclable metals, tools, and
computers and servers at different Department           personal property. Their actions resulted in
facilities, including Sandia National Laboratories,     approximately $50,000 in losses and damages.
Lawrence Berkeley National Laboratory, Thomas           Each of the eight individuals previously pled guilty
Jefferson National Accelerator Facility, and Oak        to Destroying or Damaging an Energy Facility.
Ridge National Laboratory. The individual was           Three of the eight individuals were previously
sentenced by the First Instance Court, Arad,            sentenced and ordered to make restitution.
Romania, to 40 months probation and further             During this reporting period, the remaining five
ordered to pay restitution and fees of                  individuals were sentenced ranging from one day
approximately $225,821, of which $19,032 was            to four months in prison, and two to four years
returned to the Department.                             probation, and they were ordered to pay
                                                        $98,613 in restitution.

Two Former Contractor
Employees Sentenced for Arson                           Former Department Employee
                                                        Convicted of Theft of
A joint investigation determined that two               Government Property
contractor employees at the Department’s Idaho
National Laboratory intentionally set fire to           An investigation determined that a former
1,557 acres of land belonging to the Department         Headquarters administrative support specialist
and the Bureau of Land Management. Both                 claimed and was paid for 2,415 overtime hours for
individuals pled guilty to charges of Setting Fire to   work not performed. The employee received
Public Land. One of the individuals was                 approximately $94,494 in compensation over a
sentenced to 14 months incarceration. The second        three year period for which the employee was not
individual received a sentence of three months          entitled. The individual pled guilty to one count
home detention and three years probation. Both          of Theft of Government Property. Sentencing
individuals were ordered to pay restitution totaling    is pending.
$167,820.54. One of the individuals resigned
from his position. The second individual was
terminated for cause.




  12    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Four Individuals Sentenced in                           Individuals Sentenced for Theft
Conspiracy to Damage/Destroy                            of Government Property
Energy Facilities
                                                        An investigation determined that three individuals
As previously reported, an OIG investigation            conspired to steal copper from the Oak Ridge
determined that an organized group of four              Reservation and sell it to metals recycling
individuals burglarized the Bonneville Power            companies for personal gain. The individuals,
Administration and the Flathead Electric                who had no affiliation with the Department, pled
Cooperative substations in Montana and stole            guilty to Theft of Property and were sentenced:
recyclable metals. Their actions resulted in            2 to probation, and 1 to 30 days incarceration and
approximately $87,000 in losses and damages.            4 years probation as well as placement in a
Each of the four individuals previously pled guilty     community corrections program. The three
to Conspiring to Destroy or Damage an Energy            individuals were also ordered to reimburse the
Facility. During this reporting period, the             Government a total of $4,966.
4 individuals received sentences ranging from
6 months home detention to 18 months in prison
and each received 3 years probation. The total          Former Contractor Employee
combined amount of restitution ordered                  Sentenced for Theft of
was $91,195.
                                                        Government Property

                                                        An investigation determined that a former
Former Contractor Employee                              employee at Los Alamos stole four government-
Debarred for Theft of                                   owned laptops and various computer-related
Government Property                                     devices valued at $15,000. The individual pled
                                                        guilty to 1 count of Embezzlement and was
A former contractor employee at the Argonne             sentenced to 30 days incarceration, 2 years
National Laboratory was issued a Notice of              supervised release, and fined $7,000.
Debarment in response to an OIG Investigative
Report to Management. An investigation
determined that the individual stole Government         Pantex Plant Employee
property valued at $9,800. The subject previously       Sentenced for Theft of
pled guilty to theft and was sentenced to 90 days
                                                        Government Property
incarceration, 2 years probation, and ordered to
pay $9,800 restitution.
                                                        As previously reported, a joint investigation with
                                                        local law enforcement determined that a
                                                        contractor employee whose job included
                                                        transporting nuclear weapons within the Pantex
                                                        Plant stole various items, including multiple
                                                        desktop computers, a flat screen monitor, and a
                                                        printer/copier/facsimile unit from the Pantex
                                                        Plant. The employee pled guilty to one count of
                                                        Theft of Government Property. During this


                                                         OCTOBER 1, 2008 – MARCH 31, 2009             13
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




reporting period, the employee was sentenced to         Former Subcontractor Employee
six months incarceration and three years
                                                        Debarred from Government
supervised release and fined $2,100. The
individual also was suspended from future               Contracting
Government contracting.
                                                        In response to an OIG Investigative Report to
                                                        Management, a former subcontractor at Los
Individual Sentenced in                                 Alamos was debarred from Government
                                                        contracting and Government-approved
Compensation Fraud                                      subcontracting for a period of three years. A joint
Investigation                                           OIG investigation with the Federal Bureau of
                                                        Investigation and local law enforcement
As previously reported, an OIG investigation            determined that the subject removed classified
determined that the son of a deceased Department        documents and electronic media from Los Alamos
employee forged his mother’s signature on three         without authorization. The subject previously
Energy Employees’ Occupational Illness                  pled guilty to one count of Unauthorized Removal
Compensation Program Act claim forms in an              and Retention of Classified Material and was
attempt to obtain $275,000 in benefits to which         sentenced to two years supervised probation.
he was not entitled. The son pled guilty in
U.S. District Court to one felony count of False
Statements. During this reporting period, the son       Department Employee
was sentenced to 6 months home confinement,
                                                        Suspended and Financial
3 years probation, 100 hours of community
service, and fined $100.                                Reporting Requirements
                                                        Strengthened in Response to
                                                        OIG Conflict of Interest
Former Contractor Employee                              Investigation
Pled Guilty to Theft of
Government Property                                     An OIG investigation determined that a
                                                        Bonneville Power Administration (BPA) employee
An investigation determined that a former               performed subcontract work for a BPA contractor
employee at Los Alamos stole various types of           modifying computer-aided drawings. During this
recyclable metal from the Laboratory and sold it        time, the BPA employee was found to have a
for personal gain. The individual pled guilty to        financial conflict of interest as he was responsible
one count of Petty Larceny and was sentenced to         for assigning work to the same contractor. In
three days in jail, six months supervised probation,    response to an OIG Investigative Report to
and was fined $370.                                     Management, the BPA employee received a three-
                                                        day suspension without pay. BPA also required
                                                        that all Contracting Officer Technical
                                                        Representatives receive specific ethics training and
                                                        file annual Confidential Financial Disclosure
                                                        Reports irrespective of occupation code or grade.




 14    OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




Former Department Manager
Pled Guilty to Theft of
Government Funds

An OIG investigation determined that a
Headquarters manager improperly initiated,
approved, and received a $7,500 individual cash
award for personal work performance. The
individual was placed on administrative leave
during the course of the investigation and
subsequently resigned. The individual pled guilty
to one felony count of False Statements.
Sentencing is pending.




                                                       OCTOBER 1, 2008 – MARCH 31, 2009   15
                                   SEMIANNUAL
                                   REPORT TO CONGRESS




                           This page intentionally left blank.




16   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                                                         ■   Sandia National Laboratory’s Nuclear
                                                             Weapons Strategic Management Unit
                                                             (NWSMU) Production Governance Board
                                                             will review technical proposals for new
                                                             contracts with nuclear weapon component
Positive Results                                             suppliers for correctness and completeness.
                                                             The NWSMU will also perform a self
                                                             assessment of recent technical proposal
                                                             evaluations to validate that the “Best Value”
During this reporting period, the Department                 determination, which considers the
took positive actions as a result of OIG work                technical/cost tradeoff, is sufficiently
conducted during the current or previous periods.            documented and adheres to Sandia’s
Consistent with our findings and                             procurement guidelines. (S06IS038)
recommendations:
                                                         ■   NNSA and the Office of Environmental
   ■   The Department updated policies to reflect            Management implemented actions to ensure
       current requirements for securing national            that the sites we evaluated that use the
       security systems. In addition, certain                40 mm grenade launcher weapon system
       programs conducted reviews to ensure that             had established protective force weapon
       systems were in compliance with updated               qualification courses for all environmental
       requirements. (DOE/IG-0800)                           conditions. Such qualification courses are
                                                             of particular importance to ensure
   ■   The Department took positive actions to               protective force officers are capable of
       develop policies and strengthen network               implementing site safeguards and security
       and system cyber security defense. The                plans. (DOE/IG-0806)
       number of significant cyber security
       weaknesses identified dropped from a high         ■   NNSA agreed to implement validation
       of 69 in 2002 to only 9 in 2008, of which             samplings of security clearance requests to
       only 2 were new findings.                             address that unnecessary security clearance
       (DOE/IG-0801)                                         requests at Livermore and Sandia
                                                             Laboratories contributed to excessive costs
   ■   NNSA management developed a process to                and a security clearance request processing
       document performance criteria, technical              backlog. (INS-O-09-01)
       specifications, and performance test needs
       for security technology purchases and to          ■   NNSA officials acknowledged that an SFI
       continue improving the quality of                     corrective action database should have been
       documentation relating to sole source                 completed and functional. The database
       justifications at a specified site.                   has been deployed and is now being used by
       (DOE/IG-0809)                                         Sandia, Livermore, and Los Alamos
                                                             Laboratories. In addition, milestones have
                                                             been established to fully populate the
                                                             database. Finally, the database will be
                                                             accessible to NNSA's production sites by
                                                             April 2009. (DOE/IG-0804)



                                                       OCTOBER 1, 2008 – MARCH 31, 2009             17
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




■    The Department developed a draft                 The Department’s FY 2008
     Nanotechnology Notice to prescribe safety
                                                      Consolidated Financial
     practices for working with Nanotechnology
     activities within the Department of Energy.      Statements
     The draft Notice responded to our findings
     that the Department and its laboratory           An audit of the Department’s FY 2008
     contractors had not always employed              Consolidated Financial Statements resulted in an
     precautionary safety measures as outlined by     unqualified audit opinion. Pursuant to
     the Centers for Disease Control/National         requirements established by the Government
     Institute of Safety and Health. While some       Management Reform Act of 1994, the FY 2008
     laboratories had established work practices      Consolidated Financial Statements presented fairly
     concerning the safe handling of nanoscale        in all material respects the financial position of the
     materials, the Department's laboratories we      Department. One matter, related to unclassified
     reviewed generally had not (1) performed         network and information systems security, was
     medical surveillance on individuals working      identified as a significant deficiency. The audit,
     with these materials; (2) monitored the          however, disclosed no instances of noncompliance
     workplace environment for exposure to            that are required to be reported under applicable
     airborne nanoscale materials; (3) provided       audit standards. (DOE/OAS-FS-09-01)
     specific training in the safe handling of
     nanoscale materials; and, (4) required that
     nanoscale materials research be performed        Congressional Responses
     in facilities equipped with all of the
     suggested engineering health and safety          During the reporting period October 1, 2008,
     controls. The Department's draft Notice          through March 31, 2009, the OIG provided
     prescribes safety precautions to be followed     information at the request of Congress in
     by its laboratories that are consistent with     19 instances and briefed Committee staff on
     measures suggested by the National Institute     8 occasions. In addition, the OIG testified at one
     of Safety and Health, as well as those           congressional hearing:
     suggested by other voluntary consensus
     setting organizations. (DOE/IG-0788)                 On March 19, 2009, before the
                                                          Subcommittee on Investigations and
■    NNSA recouped $29,000 from                           Oversight, House Committee on Science and
     inappropriate travel voucher claims                  Technology, entitled “Follow the Money:
     following internal travel audits at Livermore        Accountability and Transparency in Recovery
     and Los Alamos. (DOE/IG-0794)                        Act Science Funding.”




18    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Hotline System                                             ■   In response to a complaint of time and
                                                               attendance abuse by a contractor employee,
The OIG operates a Hotline System to facilitate                the program office had the contractor’s
the reporting of allegations involving the programs            internal auditors conduct an inquiry. The
and activities under the auspices of the                       inquiry showed that the employee had a
Department. During this reporting period, the                  serious problem reporting and recording
Hotline received 1,209 contacts, of which                      time and that the inattentiveness of
503 warranted further processing as complaints.                supervisors may have caused the problem to
The OIG Hotline System can be reached by                       persist for several years. The report of
calling 1-800-541-1625 or 1-202-586-4073.                      inquiry listed corrective actions, both taken
                                                               and planned, including: random audits of
                                                               actual versus recorded employee time and
                                                               training of supervisors.
Management Referral System

The OIG referred 92 complaints to the
Department management and other Government              Qui Tams
agencies during this reporting period and
specifically requested Department management to         Since 1996, the OIG has been instrumental in
respond concerning the actions taken on 35 of           working with the Department of Justice in
these complaints. Otherwise, Department                 Qui Tam cases. The OIG is currently working on
management was asked to respond only if it              15 Qui Tam lawsuits involving alleged fraud
developed information or took action that it            against the Government in the amount of
believed should be reported. The following              approximately $263,625,000. These cases are
referrals demonstrate management’s use of               highly resource intensive, requiring the active
OIG-provided information to stimulate positive          participation of OIG investigative and audit assets.
change or to take decisive action:                      However, they have proven to result in a high
                                                        return on our investment of resources.
   ■   A complaint raised a security concern
       regarding removal of a guard post at a
       contractor-operated facility in an area where    Intelligence Activities
       traffic had increased. In response to the
       complaint, the program office physically         Pursuant to requirements of the Foreign
       inspected the guard post, interviewed site       Intelligence Surveillance Act of 1978, as amended
       personnel, reviewed relevant documents,          July 10, 2008, during this period the OIG issued a
       and evaluated the approved security plan.        report entitled “Department of Energy Activities
       Based on this information, the program           Involving the President's Surveillance Program.”
       office instructed the contractor to put the      (INS-L-09-01)
       guard back on the post and admonished the
       contractor not to make changes to guard
       postings in the approved security plan
       without first consulting with the
       program office.




                                                         OCTOBER 1, 2008 – MARCH 31, 2009             19
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Legislative and Regulatory
Reviews

The Inspector General Act of 1978, as amended,
requires the OIG to review and comment upon
legislation and regulations relating to Department
programs and to make recommendations
concerning the impact of such legislation or
regulations on departmental economy and
efficiency. The OIG coordinated and reviewed
26 items during the reporting period.




 20    OFFICE OF INSPECTOR GENERAL
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




                Statistical Information


                   Recovery Act Reports Issued
                        October 1, 2008 – March 31, 2009

Report                                                         Date                Questioned
Number                           Title                        Issued     Savings     Costs

IG-RA-09-01   The American Recovery and                       03-20-09
              Reinvestment Act at the Department
              of Energy

IG-RA-09-02   The Department of Energy’s                      03-30-09
              Acquisition Workforce and its
              Impact on Implementation of the
              American Recovery and
              Reinvestment Act




                                                     OCTOBER 1, 2008 – MARCH 31, 2009    21
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                            Audit Reports Issued
                        October 1, 2008 – March 31, 2009

Report                                                          Date                     Questioned
Number                            Title                        Issued       Savings        Costs

IG-0803       Management of the Department’s Data              10-30-08     $2,300,000
              Centers at Contractor Sites

IG-0804       The Resolution of Significant Finding            11-18-08
              Investigation Recommendations (U)

IG-0805       Cyber Security Risk Management Practices         11-20-08
              at the Southeastern, Southwestern, and
              Western Area Power Administrations

IG-0807       Cyber Security Risk Management Practices         12-09-08
              at the Bonneville Power Administration

IG-0808       Management Challenges at the Department          12-23-08
              of Energy

IG-0810       Potential Uses for Depleted Uranium Oxide        01-09-09   $413,000,000

IG-0811       Washington Savannah River Company, LLC,          01-14-09
              Internal Audit Function

IG-0812       The Department of Energy’s Loan Guarantee        02-17-09
              Program for Innovative Energy Technologies

IG-0813       The Department’s Management of Nuclear           02-18-09
              Materials Provided to Domestic Licensees

OAS-M-09-01   Management Controls over the                     01-22-09      $890,000
              Department’s Excess Weapons Inventories
              and Selected Sensitive Equipment used by
              Protective Forces

OAS-L-09-01   Review of the Department of Energy’s             10-30-08
              Contract with AHTNA Government Services
              Corporation Contract No:
              DE-AC52-04NA25282

OAS-L-09-02   National Nuclear Security Administration’s       10-31-08
              Use of Innovative Technologies to Meet
              Security Requirements

OAS-L-09-03   Storage Capacity at the Pantex Plant             01-29-09

OAS-L-09-04   Contractor Severance Plans at the                02-12-09
              Department of Energy




22   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                            Audit Reports Issued
                        October 1, 2008 – March 31, 2009

Report                                                          Date                Questioned
Number                            Title                        Issued     Savings     Costs

OAS-L-09-05   The Department of Energy’s Implementation        02-26-09
              of Revised OMB Circular No. A-123

OAS-L-09-06   Federal Managers’ Financial Integrity Act        03-06-09

OAS-V-09-01   Assessment of Changes to the Internal            10-14-08              $1,380,293
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by and
              Reimbursed to Los Alamos National
              Laboratory Under Department of Energy
              Contract No. W-7405-ENG-36 for
              Fiscal Year 2005

OAS-V-09-02   Assessment of Changes to the Internal            11-14-08                $68,991
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by and
              Reimbursed to Lawrence Livermore
              National Laboratory During Fiscal Year
              2006 Under Department of Energy
              Contract No. W-7405-ENG-48

OAS-V-09-03   Assessment of Changes to the Internal            11-24-08             $16,559,651
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by and
              Reimbursed to B&W Technical Services
              Y-12, LLC (formerly BWXT Y-12, LLC)
              Under Department of Energy Contract No.
              DE-AC05-00OR22800 During Fiscal Years
              2006 and 2007

OAS-V-09-04   Assessment of Changes to the Internal            11-25-08              $4,119,763
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by and
              Reimbursed to Los Alamos National
              Laboratory Under Department of Energy
              Contract No. W-7405-ENG-36 from
              October 1, 2005 to May 31, 2006

OAS-V-09-05   Assessment of Changes to the Internal            12-12-08                 $2,086
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by Bechtel
              Jacobs Company LLC During Fiscal Year 2007




                                                      OCTOBER 1, 2008 – MARCH 31, 2009     23
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                             Audit Reports Issued
                         October 1, 2008 – March 31, 2009

Report                                                           Date                Questioned
Number                             Title                        Issued     Savings     Costs

OAS-V-09-06    Assessment of Changes to the Internal            01-08-09                $19,024
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by Fermi
               National Accelerator Laboratory During
               Fiscal Years 2005 through 2007

OAS-V-09-07    Assessment of Changes to the Internal            01-29-09             $11,000,000
               Control Structure and Their Impact on the
               Allowability of Costs Claimed by and
               Reimbursed to the Stanford Linear Accelerator
               Center Under Department of Energy Contract
               Numbers DE-AC03-76-SF00515 and
               DE-AC02-76-SF00515 During Fiscal Years
               2004 through 2007

OAS-FS-09-01   Department of Energy’s Fiscal Year 2008          11-13-08
               Consolidated Financial Statements

OAS-FS-09-02   Federal Energy Regulatory Commission’s           11-13-08
               Fiscal Year 2008 Financial Statement Audit

OAS-FS-09-03   Information Technology Management Letter         01-06-09
               on the Audit of the Department of Energy’s
               Consolidated Balance Sheet for
               Fiscal Year 2008

OAS-FS-09-04   Management Letter on the Audit of the            01-06-09
               Department of Energy's Consolidated
               Financial Statements for Fiscal Year 2008




24   OFFICE OF INSPECTOR GENERAL
                                        SEMIANNUAL
                                        REPORT TO CONGRESS




                       Inspection Reports Issued
                        October 1, 2008 – March 31, 2009

Report Number                                      Title                             Date Issued

INS-L-09-01     Department of Energy Activities Involving the President's              11-06-08
                Surveillance Program

S06IS038        Issues Relating to the Production of Components for the W76 Weapon     11-18-08
                System at Sandia National Laboratory-New Mexico

IG-0806         40 MM Grenade Launcher Qualification Requirements at Department        11-25-08
                of Energy Sites

INS-L-09-01     Security Clearances at Lawrence Livermore National Laboratory and      12-11-08
                Sandia National Laboratory-California

IG-0809         Pantex Laser Perimeter Awareness System                                01-05-09

INS-L-09-02     Questionable Purchases at the Hanford Site                             01-30-09

INS-L-09-03     Y-12 National Security Complex Accountable Classified Removable        03-16-09
                Electronic Media Program




                                                       OCTOBER 1, 2008 – MARCH 31, 2009     25
                                                              SEMIANNUAL
                                                             REPORT TO CONGRESS




     OIG Issued Audit Reports with Recommendations
                 for Better Use of Funds
                                         October 1, 2008 – March 31, 2009
                                               (Dollars in Thousands)
     The following table shows the total number of audit reports and the total dollar value of the recommendations that
                                          funds be put to better use by management:

                                                                 Total            One Time                Recurring       Total
                                                                Number             Savings                 Savings       Savings

  A. Those issued before the reporting period                         6          $708,460,262                    $0    $708,460,262
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      21           $416,190,000                    $0    $416,190,000

  C. Those for which a management decision                          14           $523,478,500                    $0    $523,478,500
     was made during the reporting period:*

        (i) Agreed to by management:                                             $108,748,500                    $0    $108,748,500

        (ii) Not agreed by management:                                                  $700,000                 $0        $700,000

  D. Those for which a management decision                            9                           $0             $0                $0
     is not required:

  E. Those for which no management decision                           4       $1,015,201,762                     $0   $1,015,201,762
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended
  actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the
  audit report and the issuance of a final decision by management concerning its response.

*The figures for dollar items include sums for which management decisions on the savings were deferred.




  26      OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                             REPORT TO CONGRESS




       OIG Issued Audit Reports with Questioned Costs
                                         October 1, 2008 – March 31, 2009
                                               (Dollars in Thousands)
              The following table shows the total number of audit reports and the total dollar value of questioned
                                                    and unsupported costs.

                                                                         Total               Questioned        Unsupported
                                                                        Number                 Costs              Costs

  A. Those issued before the reporting period for                            0               $10,189,180        $872,749
     which no management decision has
     been made:*

  B. Those issued during the reporting period:                               7               $33,148,907           $901

  C. Those for which a management decision was                               6               $30,403,376           $901
     made during the reporting period:*

       (i) Value of disallowed costs:                                        0                   $244,842            $0

       (ii) Value of costs not disallowed:                                   0                 $1,170,788            $0

  D. Those for which a management decision is                                0                            $0         $0
     not required:

  E. Those for which no management decision                                  1               $41,922,457        $873,650
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
  violation of law, regulation, contract, etc.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the
  audit report and the issuance of a final decision by management concerning its response.

*The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                                                 OCTOBER 1, 2008 – MARCH 31, 2009          27
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Reports Lacking                                             IG-0795: Meeting Medical and Research Needs
                                                            for Isotopes Derived from Uranium-233,
Management Decision
                                                            May 29, 2008 - This management decision is
                                                            currently undergoing final senior management
The Department has a system in place to track
                                                            review and concurrence. The time for
audit reports and management decisions. Its
                                                            management decision was extended due to
purpose is to ensure that recommendations and
                                                            consideration of legislative and policy issues
corrective actions indicated by audit agencies and
                                                            impacting the Department’s response to the
agreed to by management are addressed as
                                                            recommendations. The final management
efficiently and expeditiously as possible. Listed
                                                            decision is expected to be issued by
below are the audit reports over six months old
                                                            June 30, 2009.
that were issued before the beginning of the
reporting period and for which no management
decision had been made by the end of the
reporting period. The reason a management               Prior Significant
decision had not been made and the estimated            Recommendations
date for achieving management decision is               Not Implemented
described below.
                                                        As of March 2009, closure actions on
                                                        recommendations in 35 OIG reports had not
   Management Audits                                    been fully implemented within 12 months from
                                                        the date of report issuance. The OIG is
   IG-0753: Recovery Costs for the Proprietary          committed to working with management to
   Use of the Advanced Photon Source,                   expeditiously address the management decision
   January 11, 2007 - The finalization of the           and corrective action process, recognizing that
   management decision is awaiting the                  certain initiatives will require long-term, sustained,
   resolution of a complex accounting issue.            and concerted efforts. The Department has closed
   A final management decision is expected by           135 recommendations in the last 6 months.
   September 30, 2009.                                  Management updates the Departmental Audit
                                                        Report Tracking System on a quarterly basis, most
   IG-0788: Nanoscale Materials Safety at the           recently in March 2009. Information on the
   Department’s Laboratories,                           status of any report recommendation can be
   February 28, 2008 - This management                  obtained through the OIG’s Office of Audit
   decision is currently undergoing final senior        Services and Office of Inspections.
   management review and concurrence. The
   Department made a commitment to finalize a
   related Departmental directive prior to
   submitting the final management decision to
   ensure responsiveness to the report
   recommendations. The directive has now been
   finalized and the final management decision is
   expected to be issued by April 30, 2009.




 28    OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                           Summary of Inspections Activities
                                         October 1, 2008 – March 31, 2009

  Inspections open as of October 1, 2008                                                                                             34

  Inspections opened during this reporting period                                                                                    14

  Inspections closed during this reporting period                                                                                    14

  Inspections open as of March 31, 2009                                                                                              34

  Reports issued (includes non-public reports)                                                                                        7

  Report Recommendations:
      Issued this reporting period                                                                                                   19
      Accepted by management this reporting period                                                                                   19
      Implemented by management this reporting period                                                                                31
      Funds recovered                                                                                                            $29,000

  Complaints Referred to Department management/others                                                                                92
  Those requesting a response for OIG evaluation                                                                                     35

  HOTLINE ACTIVITY
  Hotline calls, emails, letters, and other complaints*                                                                             503

  Hotline calls, emails, letters, and other complaints predicated                                                                   153

  Unresolved Hotline predications from previous reporting period                                                                      2

      Total Hotline predications                                                                                                    155

  Hotline predications transferred to the Management Referral System                                                                 99

  Hotline predications closed based upon preliminary OIG activity                                                                    39

  Hotline predications pending disposition                                                                                           17

      Total Hotline predications                                                                                                    155
* The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
  appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                                                OCTOBER 1, 2008 – MARCH 31, 2009                    29
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                         Summary of Investigative Activities
                                         October 1, 2008 – March 31, 2009

  Cases open as of October 1, 2008                                                                                                 222

  Cases opened during period                                                                                                       52

  Cases closed during period                                                                                                       65

  Multi-Agency Task Force Cases Opened                                                                                              19

  Qui Tam investigations opened                                                                                                     1

        Total Open Qui Tam investigations as of March 31, 2009                                                                     15

  Cases currently open as of March 31, 2009                                                                                        209

  IMPACT OF INVESTIGATIONS:
  Administrative discipline and other management actions                                                                            29

  Recommendations to management for positive change and other actions                                                               29

  Suspensions/Debarments                                                                                                           14

  Accepted for prosecution*                                                                                                        21

  Indictments                                                                                                                       7

  Criminal convictions                                                                                                             14

  Pretrial diversions                                                                                                               1

  Civil actions                                                                                                                     5

  TOTAL DOLLAR IMPACT**                                                                                                $77,376,704.95
  (Fines, settlements, recoveries)
*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




  30      OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Feedback Sheet

The contents of the March 2009 Semiannual Report to Congress comply with the requirements
of the Inspector General Act of 1978, as amended. If you have any suggestions for making
the report more responsive, please complete this feedback sheet and return it to:

        United States Department of Energy
        Office of Inspector General (IG-1)
        Washington, D.C. 20585

        ATTN: Felicia Jones




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




For media inquiries, please dial (202) 253-2162 for assistance.



                                                          OCTOBER 1, 2008 – MARCH 31, 2009   31
This page intentionally left blank.
       U.S. Department of Energy

       Office of Inspector General



                       HOTLINE

       Call the HOTLINE if you suspect
Fraud, Waste, Abuse, or Mismanagement
             by a DOE Employee,
        Contractor, or Grant Recipient



                 Call
   1-800-541-1625 or (202) 586-4073

Additional information on the OIG and reports can be found at
                    www.ig.energy.gov




               U.S. Department of Energy
               1000 Independence Avenue, S. W.
                   Washington, DC 20585
SAR Covers 1 and 4.qxd   4/30/09   10:58 AM   Page 1
